IN THE SUPREME COURT OF THE UNITED STATES
No,
Patricia A. Flowers
Petitioner,
v.
Connecticut Light and Power Company, aka Northeast Utilities, aka Eversource
Energy.
Respondent
CERTIFICATE OF COMPLIANCE
Patricia A. Flowers v. Connecticut Light and Power Company, aka Northeast
Utilities, aka Eversource Energy. As required by Supreme Court Rule 33.1(h), I
certify that the petition for a writ of certiorari contains 7,205 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on October 15. 2019.
Patricia A. Flowers, pro se r\
76 Cambridge Street
West Hartford, CT 06110
(860) 866-6512
pflowers770@gmail.com

